Audit Report




OIG-08-006
Audit of the Financial Management Service’s Fiscal Years 2007
and 2006 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
November 13, 2007




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GEN E RAL
                                                November 13, 2007


             MEMORANDUM FOR KENNETH R. PAPAJ, COMMISSIONER
                            FINANCIAL MANAGEMENT SERVICE

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Financial Management Service’s
                                      Fiscal Years 2007 and 2006 Schedules of Non-Entity Assets,
                                      Non-Entity Costs and Custodial Revenue

             I am pleased to transmit the attached audited Financial Management Service’s (FMS)
             Fiscal Years (FY) 2007 and 2006 Schedules of Non-Entity Assets, Non-Entity Costs
             and Custodial Revenue (the Schedules). Under a contract monitored by the Office of
             Inspector General, Clifton Gunderson LLP, an independent certified public accounting
             firm, performed an audit of the Schedules of Non-Entity Assets, Non-Entity Costs
             and Custodial Revenue for Fiscal Years 2007 and 2006. The contract required that
             the audit be performed in accordance with generally accepted government auditing
             standards; applicable provisions of Office of Management and Budget (OMB) Bulletin
             No. 07-04, Audit Requirements for Federal Financial Statements; and the GAO/PCIE
             Financial Audit Manual.

             The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
             attachment:

                      •   Independent Auditor’s Report;
                      •   Independent Auditor’s Report on Internal Control; and
                      •   Independent Auditor’s Report On Compliance and Other Matters.

             In its audit of FMS’ Schedules, Clifton Gunderson LLP found:

                      •   that the Schedules present fairly, in all material respects, the Non-Entity
                          Assets as of September 30, 2007 and 2006, and Non-Entity Costs and
                          Custodial Revenue for the years then ended in conformity with accounting
                          principles generally accepted in the United States of America,
                      •   no matters involving internal control and its operation that are considered
                          material weaknesses, and
                      •   no instances of reportable noncompliance with laws and regulations tested.
Clifton Gunderson LLP also issued a management letter dated November 8, 2007,
discussing other matters involving internal control over financial reporting and its
operation that were identified during the audit, but were not required to be included
in the auditor’s reports.

In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on FMS’ Schedules or conclusions about the effectiveness of
internal control or compliance with laws and regulations. Clifton Gunderson LLP is
responsible for the attached auditor’s reports dated November 8, 2007 and the
conclusions expressed in the reports. However, our review disclosed no instances
where Clifton Gunderson LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Ade Bankole, Audit Manager, Financial Audits at
(202) 927-5329.

Attachment

cc:   Kenneth Carfine
      Fiscal Assistant Secretary
U.S. DEPARTMENT OF THE TREASURY,

 FINANCIAL MANAGEMENT SERVICE

          Washington, DC


INDEPENDENT AUDITOR’S REPORTS

  AND SCHEDULES OF NON-ENTITY

 ASSETS, NON-ENTITY COSTS AND

       CUSTODIAL REVENUE


     September 30, 2007 and 2006
                                              TABLE OF CONTENTS



                                                                                                                       PAGE


INDEPENDENT AUDITOR’S REPORT ...................................................................................1


INDEPENDENT AUDITOR’S REPORT ON

   INTERNAL CONTROL .........................................................................................................2


INDEPENDENT AUDITOR’S REPORT ON

   COMPLIANCE AND OTHER MATTERS..........................................................................4


SCHEDULES OF NON-ENTITY ASSETS, NON-ENTITY

  COSTS AND CUSTODIAL REVENUE ...............................................................................5


NOTES TO SCHEDULES ............................................................................................................6

A1

                                Independent Auditor’s Report


To the Inspector General of the U. S. Department of the Treasury and
  the Commissioner of the Financial Management Service

We have audited the accompanying Schedules of Non-Entity Assets as of September 30, 2007
and 2006, and Non-Entity Costs and Custodial Revenue for the years then ended (the Schedules)
of the U.S. Department of the Treasury’s Financial Management Service (FMS). These
schedules are the responsibility of FMS’ management. Our responsibility is to express an
opinion on these schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedule is free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Schedule presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the
Non-Entity Assets as of September 30, 2007 and 2006, and Non-Entity Costs and Custodial
Revenue for the years then ended in conformity with accounting principles generally accepted in
the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2007, on our consideration of FMS’ internal control over financial reporting
relating to the amounts reflected in the Schedule and on our tests of FMS’ compliance with
certain provisions of laws and regulations and other matters relating to the amounts reflected in
the Schedule. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing and not to provide
an opinion on internal control over financial reporting or compliance. Those reports are an
integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.

a2
Calverton, Maryland
November 8, 2007

11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106
tel: 301­931­2050


                                                                                  h
fax: 301­931­1710                                   1
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
A1

                           Independent Auditor’s Report On Internal Control


To the Inspector General of the U. S. Department of the Treasury and
 the Commissioner of the Financial Management Service


We have audited the Schedule of Non-Entity Assets as of September 30, 2007, and Non-Entity
Costs and Custodial Revenues for the year ended September 30, 2007 (the Schedule) of the U. S.
Department of the Treasury’s Financial Management Service (FMS), and have issued our report
thereon dated November 8, 2007. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and applicable provisions of Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered FMS’ internal control over financial
reporting for amounts reflected in the Schedule by obtaining an understanding of relevant
internal controls, determined whether these internal controls had been placed in operation,
assessed control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the Schedule. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04. We did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982, such as those controls relevant
to ensuring efficient operations. The objective of our audit was not to provide assurance on
internal control. Consequently, we do not provide an opinion on internal control.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects FMS’ ability to initiate, authorize, record, process,
or report financial data reliably in accordance with generally accepted accounting principles such
that there is more than a remote likelihood that a misstatement of FMS’ Schedule that is more
than inconsequential will not be prevented or detected by FMS’ internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the Schedule will not be
prevented or detected by FMS’ internal control.




11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106


                                                                                    h
tel: 301­931­2050                                       2
fax: 301­931­1710
www.cliftoncpa.com                    Offices in 17 states and Washington, DC
Our consideration of internal control over financial reporting was for the limited purpose
described in the second paragraph of this report, and would not necessarily identify all
deficiencies in internal control that might be significant deficiencies or material weaknesses. We
did not identify any deficiencies in internal control over financial reporting that we consider to
be material weaknesses, as defined above.

However, we noted other matters involving the internal control over financial reporting for the
amounts reflected in the Schedule that we have reported to management of FMS in a separate
letter dated November 8, 2007.

This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, the Government Accountability Office,
OMB and Congress and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
November 8, 2007




                                                3

A1

                 Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the U. S. Department of the Treasury and
 the Commissioner of the Financial Management Service

We have audited the Schedule of Non-Entity Assets as of September 30, 2007, and Non-Entity
Costs and Custodial Revenue for the year ended September 30, 2007 (the Schedule) of the U. S.
Department of the Treasury’s Financial Management Service (FMS), and have issued our report
thereon dated November 8, 2007. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and applicable provisions of Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements.

The management of FMS is responsible for complying with laws and regulations applicable to
the amounts reflected in the Schedule. As part of obtaining reasonable assurance about whether
the amounts reflected in the Schedule are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of the amounts reflected in the Schedule
and certain other laws and regulations specified in OMB Bulletin No. 07-04. We limited our
tests of compliance to those provisions, and we did not test compliance with all laws and
regulations applicable to FMS.

The results of our tests of compliance disclosed no instances of noncompliance with the laws and
regulations described in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards and OMB Bulletin No. 07-04.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FMS, the
Department of the Treasury Office of Inspector General, the Government Accountability Office,
OMB and Congress and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
November 8, 2007

11710 Beltsville Drive
Suite 300
Calverton, MD 20705­3106


                                                                                 h
tel: 301­931­2050
fax: 301­931­1710                                  4
www.cliftoncpa.com                   Offices in 17 states and Washington, DC
                      U.S. DEPARTMENT OF THE TREASURY,

                       FINANCIAL MANAGEMENT SERVICE

                       SCHEDULES OF NON-ENTITY ASSETS

                     AS OF SEPTEMBER 30, 2007 AND 2006 AND

                  NON-ENTITY COSTS AND CUSTODIAL REVENUE

                FOR THE YEARS ENDED SEPTEMBER 30, 2007 AND 2006

                                 (In Thousands)


                                                                          2007           2006
NON-ENTITY ASSETS
  Intra-governmental:
      Fund balance with Treasury (Note 2)                            $      688,106 $     573,474
      Accounts receivable, net (Note 3)                                     367,642       372,129
      Other                                                                  14,486        15,508
          Total intra-governmental                                        1,070,234       961,111

    With the public:
       Receivable on deposit of earnings, Federal Reserve System          1,290,823       773,937
       Accounts receivable, net (Note 3)                                     98,459        40,082
            Total with the public                                         1,389,282       814,019
TOTAL NON-ENTITY ASSETS                                              $    2,459,516 $ 1,775,130

NON-ENTITY COSTS (Notes 4 and 6)
  Credit reform - interest paid on uninvested funds                  $    4,632,281 $ 5,200,201
  Judgments                                                               1,221,317     677,087
  Resolution Funding Corporation                                          1,986,731   1,978,671
  Public Broadcasting Fund, Corporation for Public Broadcasting             464,350     460,350
  Legal Services Corporation                                                349,970     328,048
  District of Columbia                                                      117,094     131,666
  Restitution of foregone interest                                             -        156,774
  Presidential Election Campaign Fund                                        32,462        -
  Other                                                                      59,677      10,716
TOTAL NON-ENTITY COSTS                                               $    8,863,882 $ 8,943,513

CUSTODIAL REVENUE (Note 5)
  Deposit of earnings, Federal Reserve System                        $ 32,042,738 $ 29,945,010
  Interest received from tax and loan depositaries                      1,173,927      923,656
  Recoveries from federal agencies for settlement of
    claims from contract disputes                                            145,201      135,909
  General fund proprietary receipts, not otherwise classified                 72,399       42,774
  Fines, penalties, and forfeitures                                              473       40,738
  Interest payments from states, cash management program                      51,556       30,436
  Other                                                                       24,535       19,940
            Total cash collections                                       33,510,829     31,138,463

    Accrual adjustment                                                       571,100      357,803
TOTAL CUSTODIAL REVENUE                                              $ 34,081,929 $ 31,496,266



                         These schedules should be read only in connection
                            with the accompanying notes to schedules.

                                                   5
                        U.S. DEPARTMENT OF THE TREASURY,

                         FINANCIAL MANAGEMENT SERVICE

                                NOTES TO SCHEDULES

                             SEPTEMBER 30, 2007 AND 2006



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity

The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
(Treasury). FMS’ mission is to improve the quality of government financial management. FMS’
commitment and responsibility is to help its customers achieve success. FMS does this by
linking program and financial management objectives and by providing financial services,
information, advice, and assistance to its customers. FMS serves taxpayers, Treasury, Federal
program agencies, and government policy makers.

Non-Entity accounts are those accounts that FMS holds but are not available to FMS in its
operations. For example, FMS accounts for certain cash that the Federal Government collects
and holds on behalf of the U. S. Government or other entities. However, the Schedules of Non-
Entity Assets, Non-Entity Costs and Custodial Revenue (the Schedules) do not include Non-
Entity Operating Cash of the Federal Government (commonly known as Government-wide
Cash). These Schedules include the activity of Non-Entity account symbols managed by FMS.

Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
appropriations are permanent, indefinite appropriations. They are not subject to budgetary
ceilings established by Congress. Both types of appropriations are used for payments to Federal
program agencies and others.

Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous
receipt accounts. Examples of collections include interest payments, contributions, and
collections of fines and penalties.

Basis of Presentation

The Schedules have been prepared from the accounting records maintained by FMS and are
meant to report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of FMS in
accordance with generally accepted accounting principles. Such principles require the use of the
accrual method of accounting to record transactions. Under the accrual method, revenues are
recognized when earned and costs are recognized when a cost is incurred, without regard to
receipt or payment of cash. These Schedules were prepared following accrual accounting.

The standards used in the preparation of these Schedules are issued by the Federal Accounting
Standards Advisory Board (FASAB), as the body authorized to establish generally accepted
accounting principles for Federal government entities.




                                               6

                        U.S. DEPARTMENT OF THE TREASURY,

                         FINANCIAL MANAGEMENT SERVICE

                                NOTES TO SCHEDULES

                             SEPTEMBER 30, 2007 AND 2006



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

Balances reflected on these Schedules may differ from those on financial reports prepared by
FMS pursuant to certain OMB directives that are primarily used to monitor and control FMS’
use of budgetary resources.

Use of Estimates in Preparing Schedules

The preparation of these Schedules, in conformity with generally accepted accounting principles,
requires management to make estimates and assumptions. These estimates affect the reported
amounts of assets at the date of the Schedules and the amounts of revenues and costs during the
reporting period for the Schedules. Actual results may differ from these estimates.

Fund Balance with Treasury

The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
spending authority of Federal agencies. Collections and disbursements by agencies will,
correspondingly, increase or decrease the balance in the account.

Accounts Receivable

Accounts receivable is comprised of Intra-governmental accounts (i.e., amounts due from other
Federal agencies) and accounts with the Public. Accounts with the Public include amounts due
from the Federal Reserve System. FMS records an allowance for uncollectible accounts based
on projections of future collections (based on prior year collection trends) and the aging of
outstanding accounts receivable at September 30.

Receivable on Deposit of Earnings, Federal Reserve System

Reserve Banks are required by the Board of Governors of the Federal Reserve System to transfer
to the U. S. Treasury excess earnings, after providing for the cost of operations, payment of
dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the
event of losses, or a substantial increase in capital, a Reserve Bank will suspend its payments to
the U. S. Treasury until such losses or increases in capital are recovered through subsequent
earnings. Weekly payments to the U. S. Treasury may vary significantly. The Receivable on
Deposit of Earnings, Federal Reserve System, represents the earnings due Treasury as of
September 30, but not collected by the U. S. Treasury until after the end of the month.




                                                7

                         U.S. DEPARTMENT OF THE TREASURY,

                          FINANCIAL MANAGEMENT SERVICE

                                 NOTES TO SCHEDULES

                              SEPTEMBER 30, 2007 AND 2006



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (CONTINUED)

Custodial Revenue

Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to
account for other changes in the Non-Entity Accounts Receivable not resulting in a collection of
cash in the current period (i.e., new reimbursements and changes in the allowance for
uncollectible accounts).

Intra-governmental Financial Activities

The financial activities of FMS are affected by, and are dependent upon, those of U. S.
Department of the Treasury and the Federal Government as a whole. Thus, the accompanying
Schedules do not reflect the results of all-financial decisions and activities applicable to FMS as
if it were a stand-alone entity.

Reclassifications

Certain amounts in the prior year’s presentation have been reclassified to conform with the
current year’s presentation. These reclassifications have no effect on previously reported total
non-entity assets, total non-entity costs, or total custodial revenue.

NOTE 2 – FUND BALANCE WITH TREASURY

The Fund Balance with Treasury is funded through various sources depending on the specific
legislative authority and purpose, and may be used only for specific purposes. Such amounts
may be in escrow or other special accounts. These accounts are primarily funded through
appropriations, collections, tax receipts, gifts to the Government, and settlements from foreign
countries.

Obligated balances are funds against which budgetary obligations have been incurred, but
disbursements have not been made. The Unobligated Available balance is the amount of funds
available to FMS against which no claims have been recorded. The Unobligated Unavailable
balance is the amount of unobligated funds remaining from appropriations that have expired,
appropriations that have not been apportioned, authority that is not available pursuant to public
law, and the amount of funds in deposit funds, clearing accounts and receipt accounts. Fund
Balance with Treasury as of September 30, 2007 and 2006 consisted of the following (amounts
in thousands):




                                                8

                        U.S. DEPARTMENT OF THE TREASURY,
                         FINANCIAL MANAGEMENT SERVICE
                                NOTES TO SCHEDULES
                             SEPTEMBER 30, 2007 AND 2006


NOTE 2 – FUND BALANCE WITH TREASURY (CONTINUED)

                                                            2007
                                              Unobligated       Unobligated
Account Type                 Obligated         Available         Unavailable         Total
Appropriated Funds          $ 126,586        $ 164,844          $ 15,843           $ 307,273
Revolving Funds                   159             7,050               -                7,209
Trust Funds                         39                45                16               100
Other Fund Types                  -                 -              373,524           373,524
Total                       $ 126,784        $ 171,939          $ 389,383          $ 688,106


                                                            2006
                                              Unobligated       Unobligated
Account Type                 Obligated         Available         Unavailable         Total
Appropriated Funds          $ 62,988         $ 150,733          $ 13,079           $ 226,800
Revolving Funds                   383             3,030               -                3,413
Trust Funds                         41                39              -                   80
Other Fund Types                  -                 -              343,181           343,181
Total                       $ 63,412         $ 153,802          $ 356,260          $ 573,474


The fund balance, unobligated available supports the budgetary resources available except for
$310 thousand in 2007 and 2006, which is invested. The fund balance, unobligated unavailable
for appropriated funds supports the budgetary resources not available. The fund balance,
unobligated unavailable for other fund types, includes only deposit funds and suspense accounts
which do not have a budgetary impact.

NOTE 3 – ACCOUNTS RECEIVABLE, NET

Intra-governmental Accounts Receivable, Net
Intra-governmental accounts receivable principally includes amounts for which Federal agencies
are required to reimburse the Treasury’s Judgment Fund for settlements paid or accrued on their
behalf for contract disputes (pursuant to the Contracts Dispute Act) and No Fear Act. While the
Contracts Dispute Act (CDA) and No Fear Act (No Fear) require Federal Agencies reimburse the
Judgment Fund for payments, CDA and No Fear do not authorize FMS collection action against
those Agencies. Accordingly, FMS has historically had difficulty in collecting amounts owed to
them under the CDA. An allowance for uncollectible accounts has been established to recognize
losses on receivables that may not be collected under this Program. The activity in the allowance
account each year is reflected in the “Accrual Adjustment” line in the custodial revenue section
of the Schedules.




                                               9

                        U.S. DEPARTMENT OF THE TREASURY,

                         FINANCIAL MANAGEMENT SERVICE

                                NOTES TO SCHEDULES

                             SEPTEMBER 30, 2007 AND 2006



NOTE 3 – ACCOUNTS RECEIVABLE, NET (CONTINUED)


Intra-governmental accounts receivable as of September 30, 2007 and 2006 consist of the
following (amounts in thousands):

                                                                        2007              2006

Claims for Contract Disputes and Fire Fighting                      $ 1,094,038       $ 1,096,305
Claims for No Fear Act                                                    3,604             5,824
Less: Allowance for Uncollectable Accounts                             (730,000)         (730,000)
   Accounts Receivable, Net                                         $   367,642       $ 372,129

Accounts Receivable With the Public, Net
Accounts receivable with the Public, exclusive of amounts due from the Federal Reserve System,
as of September 30, 2007 and 2006 consist of the following (amounts in thousands):

                                                                        2007              2006

U. S. Treasury Check Forgery Insurance Fund Receivables             $     1,078       $     1,752
Interest Received from Tax and Loan Depositaries                         97,981            39,293
German Democratic Republic Settlement Fund                                    -                63
Interest Payments from States                                                25                12
    Gross Accounts Receivable                                            99,084            41,120

Less Allowance for Uncollectible Accounts                                  (625)           (1,038)
                                                                    $    98,459       $    40,082
   Accounts Receivable, Net

The U. S. Treasury Check Forgery Insurance Fund was established to expedite payments on
claims and provide a dependable source of funds to meet the Federal Government’s
responsibility for the payment of settlement checks issued to replace checks paid over forged
endorsements. The receivable represents the amount due from banks that cashed the forged
checks.

The receivable for Interest Received from Tax and Loan Depositaries represents interest accrued
and owed to the Treasury, from the depositaries participating in the Investment Programs, for the
interest earned on Treasury Tax and Loan funds. The Treasury Tax and Loan (TT&L) program
invests funds collected by the Federal Government in short-term loans to commercial financial
institutions. These funds can be withdrawn on demand to meet the Federal Government’s
immediate cash requirements.




                                                 10

                         U.S. DEPARTMENT OF THE TREASURY,

                          FINANCIAL MANAGEMENT SERVICE

                                 NOTES TO SCHEDULES

                              SEPTEMBER 30, 2007 AND 2006



NOTE 4 – NON-ENTITY COSTS

Non-Entity Costs represent payments made on behalf of the Federal Government through various
Treasury Managed Accounts (TMA) described below. In addition, Non-Entity Costs also
include accruals for which FMS has made a commitment to make a payment for claims existing
as of September 30, 2007 and 2006.

Credit Reform: Interest Paid on Uninvested Funds – Direct loan and loan guarantee financing
accounts receive various payments, repayments and fees, and make payments on defaults. When
cash receipts exceed outlays or when an agency does not disburse all of its borrowings, these
balances are held in the Treasury and earn interest. The interest earned on these balances is
disbursed by FMS to the agency.

Judgments – FMS processes payments from the Judgment Fund for certain judicially and
administratively ordered monetary awards against the United States, as well as amounts owed
under compromise agreements negotiated by the United States Department of Justice in
settlement of claims arising under actual or imminent litigation.

Resolution Funding Corporation – The Resolution Funding Corporation (REFCORP) account is
maintained pursuant to the Federal Home Loan Bank Act. FMS provides payments to
REFCORP to cover the interest expenses of REFCORP.

Public Broadcasting Fund, Corporation for Public Broadcasting – This account is used to make
annual payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law.
The payment is used to assist and facilitate the full development of public telecommunications in
which programs of high quality, diversity, creativity, excellence, and innovations will be made
available to public telecommunications.

Legal Services Corporation – This account is used to pay the Legal Services Corporation
through letter of credit drawdowns. The Legal Services Corporation distributes appropriated
funds to local nonprofit organizations that provide free civil legal assistance, according to locally
determined priorities, to people living in poverty. Congress chartered the corporation as a
private, non-profit entity outside of the Federal Government.

District of Columbia – Payments to the District of Columbia cover certain operations of the
District of Columbia. It includes payments for a program of management reform, for the
administration and operation of correctional facilities, and for construction and repair of the
District’s infrastructure.

Restitution of Foregone Interest – This account is used to restore “lost” interest to investing
program agencies such as the Civil Service Retirement and Disability Trust Fund and the Thrift
Savings Fund after a Debt Issuance Suspension Period (debt crisis) has ended.



                                                 11

                        U.S. DEPARTMENT OF THE TREASURY,

                         FINANCIAL MANAGEMENT SERVICE

                                NOTES TO SCHEDULES

                             SEPTEMBER 30, 2007 AND 2006



NOTE 4 – NON-ENTITY COSTS (CONTINUED)

Presidential Election Campaign Fund – The Presidential Election Campaign Fund (PECF) is
maintained in accordance with Internal Revenue Code. The purpose of the PECF is to defray the
qualified campaign expenses which were incurred by eligible presidential candidates or
nominating conventions. The PECF is a special fund financed through the collections of the $3
check off option selected by taxpayers. These amounts are collected by the Internal Revenue
Service and deposited into the PECF. Payments were made to the Republican and Democratic
National Conventions in July 2007.

The PECF is broken down into the following accounts: Presidential Primary Matching Payment
Account; Presidential Nominating Convention Account; and Presidential and Vice Presidential
Nominee Account. Each account is funded in accordance with budget estimates provided by the
Federal Election Commission (FEC). Payments from the PECF are made to qualified recipients
upon certification from the FEC.

Other – Other Non-Entity costs include the following payments: Moneys Erroneously Received
and Covered, Payments to the States, Payments to Agencies for Interest on Uninvested Funds,
Payment to the Institute of American Indian and Alaskan Native Culture and Arts Development,
Payments from the U. S. Treasury Check Forgery Insurance Fund, Payments to Individuals under
Private and Public Relief Laws, Payments from Biomass Energy Development.

NOTE 5 – COLLECTIONS OF CUSTODIAL REVENUE

FMS collects Custodial Revenue that is not related to its mission and distributes the full amount
collected to the Treasury General Fund. For the years ended September 30, 2007 and 2006 cash
collections were as follows (amounts in thousands):
                                                                            2007
                                                          October to January to
                                                          December, September,
                                                             2006            2007           Total
Deposit of earnings, Federal Reserve System              $ 5,787,507    $26,255,231    $32,042,738
Interest received from tax and loan depositaries             269,310       904,617       1,173,927
Recoveries from federal agencies for
  settlement of claims from contract disputes                 17,831        127,370        145,201
General fund proprietary receipts, not
  otherwise classified                                         8,390         64,009         72,399
Fines, penalties and forfeitures                                 119            354            473
Interest payments from states, cash management
  program                                                        -           51,556         51,556
Other                                                          5,920         18,615         24,535
Total                                                    $ 6,089,077    $27,421,752    $33,510,829


                                               12

                         U.S. DEPARTMENT OF THE TREASURY,

                          FINANCIAL MANAGEMENT SERVICE

                                 NOTES TO SCHEDULES

                              SEPTEMBER 30, 2007 AND 2006



NOTE 5 – COLLECTIONS OF CUSTODIAL REVENUE (CONTINUED)

                                                                             2006
                                                           October to     January to
                                                           December,      September,
                                                             2005            2006            Total
Deposit of earnings, Federal Reserve System                $ 5,804,409    $24,140,601    $29,945,010
Interest received from tax and loan depositaries               148,213       775,443        923,656
Recoveries from federal agencies for settlement of
  claims from contract disputes                                 60,470          75,439        135,909
General fund proprietary receipts, not otherwise
  classified                                                     7,119          35,655         42,774
Fines, penalties and forfeitures                                    61          40,677         40,738
Interest payments from states, cash management
  program                                                         -             30,436         30,436
Other                                                            7,448          12,492         19,940
Total                                                      $ 6,027,720    $25,110,743    $31,138,463

NOTE 6 – CONTINGENCIES

A contingency is an existing condition, situation or set of circumstances involving uncertainty as
to possible payment by FMS. The uncertainty will ultimately be resolved when one or more
future events occur or fail to occur. For pending, threatened or unasserted litigation, a
liability/cost is recognized when a past transaction or event has occurred, a future outflow or
other sacrifice of resources is probable, and the related future outflow or sacrifice of resources
can be reasonably estimated.

There are numerous legal actions pending against the United States in Federal courts in which
claims have been asserted that may be based on action taken by FMS. Management intends to
vigorously contest all such claims. Management believes, based on information provided by
legal counsel, that losses, if any, for the majority of these cases would not have a material impact
on the Schedules. There are other cases that could result in significant payouts; however, legal
counsel is unable to determine the probability of an unfavorable outcome, or determine an
estimate or range of potential loss, for these matters, if any. No loss accrual has been made for
these cases outstanding at September 30, 2007 or 2006. Below is an example of one such case:

        Cobell, et al. v. Kempthorne, et al.
        In this case, the plaintiffs allege that the Departments of the Interior and Treasury have
        breached trust obligations with respect to the management of the plaintiffs’ Individual
        Indian Monies (IIM). The plaintiffs have not made claims for specific dollar amounts.
        However, their claims are complex, and if an unfavorable decision is rendered, a material
        loss could be incurred.


                                                13

                        U.S. DEPARTMENT OF THE TREASURY,

                         FINANCIAL MANAGEMENT SERVICE

                                NOTES TO SCHEDULES

                             SEPTEMBER 30, 2007 AND 2006



In addition, FMS manages several accounts that may be used for the payment of claims against
other Federal Agencies. Such payments are reflected in the following Non-Entity cost accounts
reflected in the Schedules: Judgments and Moneys Erroneously Received and Covered (included
in Other). At September 30, 2007 and 2006, such claims are in various stages of settlement.

Pursuant to the provisions of the Federal Accounting Standards Advisory Board (FASAB)
Interpretation No. 2, “Accounting for Treasury Judgment Fund Transactions,” claim amounts
will be reflected in the Schedules upon completion of certain judicial procedures and the Federal
agency’s request for payment of these claims from the Judgment Fund. At September 30, 2007
and 2006, $46 million and $10 million, respectively, has been accrued for the estimated future
expenditures expected to satisfy these claims.




               This information is an integral part of the accompanying schedules.

                                               14
